Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  BLUE CROSS BLUE SHIELD OF
   TENNESSEE OVERCLAIMED
POSTRETIREMENT BENEFIT COSTS
       FOR FISCAL YEARS
     1992 THROUGH 2009


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      January 2013
                                                      A-07-12-00403
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Tennessee (BCBS Tennessee), doing business as Riverbend
Government Benefits Administrator, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated August 1, 2009.

BCBS Tennessee sponsors a postretirement benefit (PRB) plan named the Blue Cross Blue
Shield of Tennessee Retiree Health Program. This plan is designed to provide medical, dental,
vision and life benefits to retirees and their dependents. BCBS Tennessee claimed PRB costs for
Federal reimbursement on an accrual basis. BCBS Tennessee established its Voluntary
Employee Benefit Association trust and began funding it in December 1992.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards as required by the Medicare contracts.

OBJECTIVE

Our objective was to determine whether the PRB costs claimed by BCBS Tennessee for
Medicare reimbursement for fiscal years (FYs) 1992 through 2009 were allowable and correctly
claimed.

SUMMARY OF FINDING

BCBS Tennessee claimed $6,351,051 in PRB costs for FYs 1992 through 2009; however, we
determined that allowable PRB costs for this time period were $6,016,992. The difference,
$334,059, was unallowable for Medicare reimbursement. BCBS Tennessee claimed these
unallowable PRB costs because it based its claim on an amount that did not comply with the
provisions of FAR 31.205 as required by the Medicare contracts.

RECOMMENDATION

We recommend that BCBS Tennessee revise its final administrative cost proposals to reduce its
PRB costs claimed by $334,059.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Tennessee concurred with our recommendation
and stated that it would work directly with CMS to resolve this issue.




                                               i
                                                  TABLE OF CONTENTS

                                                                                                                                              Page

INTRODUCTION................................................................................................................................. 1

          BACKGROUND ........................................................................................................................ 1
              Blue Cross Blue Shield of Tennessee and Medicare ...................................................... 1
              Medicare Reimbursement of Postretirement Benefit Costs ............................................ 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................................... 1
               Objective ......................................................................................................................... 1
               Scope ............................................................................................................................... 2
               Methodology ................................................................................................................... 2

FINDING AND RECOMMENDATION ............................................................................................ 2

          FEDERAL REQUIREMENTS ................................................................................................... 3

          UNALLOWABLE POSTRETIREMENT BENEFIT PLAN COSTS CLAIMED .................... 3

          RECOMMENDATION .............................................................................................................. 4

          AUDITEE COMMENTS............................................................................................................ 4

APPENDIXES

     A: BLUE CROSS BLUE SHIELD OF TENNESSEE STATEMENT
        OF ALLOWABLE POSTRETIREMENT BENEFIT
        PLAN COSTS FOR FISCAL YEARS 1992 THROUGH 2009

     B: AUDITEE COMMENTS




                                                                     ii
                                      INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Tennessee and Medicare

Blue Cross Blue Shield of Tennessee (BCBS Tennessee), doing business as Riverbend
Government Benefits Administrator, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated August 1, 2009.

BCBS Tennessee sponsors a postretirement benefit (PRB) plan named the Blue Cross Blue
Shield of Tennessee Retiree Health Program. This plan is designed to provide medical, dental,
vision, and life benefits to retirees and their dependents. BCBS Tennessee claimed PRB costs
for Federal reimbursement on an accrual basis. BCBS Tennessee established its Voluntary
Employee Benefit Association (VEBA) trust and began funding it in December 1992.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards (CAS) as required by the Medicare contracts.

Medicare Reimbursement of Postretirement Benefit Costs

Medicare reimburses a portion of the funded accruals that contractors charge for their PRB plans.
FAR 31.205-6(o) requires that, to be allowable for Medicare reimbursement, PRB accrual costs
be (1) determined in accordance with generally accepted accounting principles (GAAP) and
(2) funded into a dedicated trust, such as a VEBA trust.

Following the close of each fiscal year (FY), BCBS Tennessee submitted a final administrative
cost proposal (FACP) to CMS reporting the administrative costs of performing Medicare
functions during the year. The accrued PRB costs are part of the administrative costs of
performing Medicare functions and, as such, are claimed on each FY’s FACP.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the PRB costs claimed by BCBS Tennessee for
Medicare reimbursement for FYs 1992 through 2009 were allowable and correctly claimed.




                                               1
Scope

We reviewed $6,351,051 of PRB costs that BCBS Tennessee claimed for Medicare
reimbursement on its FACPs for FYs 1992 through 2009. Achieving the objective did not
require that we review BCBS Tennessee’s internal control structure. We reviewed the controls
related to the accrued PRB costs that BCBS Tennessee claimed for Medicare reimbursement to
ensure that PRB costs were allowable pursuant to the FAR.

We performed fieldwork at BCBS Tennessee’s office in Chattanooga, Tennessee, during
November and December 2011.

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. We identified
the amount of accrued PRB costs claimed on BCBS Tennessee’s FACPs. We also determined
the extent to which BCBS Tennessee funded the PRB costs with contributions to the VEBA trust
and accumulated prepayment credits or with direct payments of benefits.

In performing our review, we used information provided by BCBS Tennessee’s actuarial
consulting firms. This information included the VEBA assets, PRB obligations, service costs,
contributions, claims paid, claims reimbursed, investment earnings, and administrative expenses.
We also reviewed BCBS Tennessee’s PRB plan documents and PRB actuarial valuation reports,
which included Statement of Financial Accounting Standards (SFAS) 106 information. The
CMS Office of Actuary staff used this information to develop CAS-based PRB costs for BCBS
Tennessee based on SFAS 106 methodology applied in accordance with FAR 31.205-6(o). In
turn, we verified the actuarial data and used it to calculate the CAS-based PRB costs that were
allowable for Medicare reimbursement on BCBS Tennessee’s FACPs for FYs 1992 through
2009. We based our calculations on a Total Company CAS-based PRB costs and allocated the
Total Company CAS-based PRB costs to the Medicare segment.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

BCBS Tennessee claimed $6,351,051 in PRB costs for FYs 1992 through 2009; however, we
determined that allowable PRB costs for this time period were $6,016,992. The difference,
$334,059, was unallowable for Medicare reimbursement. BCBS Tennessee claimed these
unallowable PRB costs because it based its claim on an amount that did not comply with the
provisions of FAR 31.205 as required by the Medicare contracts.




                                               2
FEDERAL REQUIREMENTS

The FAR states that accrual accounting may be used to determine the allowable PRB costs if the
cost is measured and assigned (actuarially determined) according to GAAP based on
amortization of any transition obligation. 1 The FAR also states that allowable costs must be
funded by the time set for filing the Federal income tax return or any extension thereof and must
comply with the applicable standards promulgated by the CAS Board.

UNALLOWABLE POSTRETIREMENT BENEFIT PLAN COSTS CLAIMED

BCBS Tennessee claimed PRB costs of $6,351,051 for Medicare reimbursement on its FACPs
for FYs 1992 through 2009. 2 We calculated the allowable CAS-based accrued PRB costs in
accordance with the FAR and the CAS and determined that the allowable CAS-based accrued
PRB costs for FYs 1992 through 2009 were $6,016,992.

Thus, BCBS Tennessee claimed unallowable PRB costs totaling $334,059 on its FACPs for FYs
1992 through 2009. BCBS Tennessee claimed these unallowable PRB costs because it based its
claim on an amount that did not comply with the provisions of FAR 31.205 as required by the
Medicare contracts.

The table on the following page compares allowable CAS-based PRB costs with the PRB costs
claimed on BCBS Tennessee’s FACPs. The Appendix A contains additional details on
allowable CAS-based PRB costs.




1
 Costs attributable to past service (transition obligation) must be assigned under the delayed recognition
methodology described in paragraphs 112 and 113 of SFAS 106.
2
 The allowable CAS-based PRB costs for FY 2009 were attributable to the PRB costs for October 1, 2008, through
August 1, 2009.


                                                          3
                                    Medicare PRB Costs
                                                   Claimed by
                                  Allowable          BCBS
                   Fiscal Year    Per Audit        Tennessee     Difference
                      1992           $59,580                $0       $59,580
                      1993            90,837            75,567        15,270
                      1994            65,880            79,876      (13,996)
                      1995            17,776            30,765      (12,989)
                      1996            60,655           118,881      (58,226)
                      1997            76,584           145,171      (68,587)
                      1998            20,677           147,178     (126,501)
                      1999             1,557            34,087      (32,530)
                      2000            74,074            98,269      (24,195)
                      2001           340,202           364,200      (23,998)
                      2002           644,176           677,326      (33,150)
                      2003           662,660           695,777      (33,117)
                      2004         1,325,886         1,115,508       210,378
                      2005           857,042           841,917        15,125
                      2006           867,430           931,102      (63,672)
                      2007           600,316           646,803      (46,487)
                      2008           216,466           273,122      (56,656)
                      2009            35,194            75,502      (40,308)
                      Total       $6,016,992        $6,351,051    ($334,059)

BCBS Tennessee is required to calculate PRB costs for Medicare reimbursement in accordance
with the FAR and the CAS. However, BCBS Tennessee incorrectly based its PRB costs claimed
for Medicare reimbursement on a net periodic benefit cost without regard to the provisions of
FAR 31.205-6(o). Therefore, BCBS Tennessee claimed unallowable PRB costs of $334,059.

RECOMMENDATION

We recommend that BCBS Tennessee revise its FACPs to reduce its PRB costs claimed by
$334,059.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Tennessee concurred with our recommendations
and stated that it will work directly with CMS to resolve these issues.

BCBS Tennessee’s comments are included in their entirety as Appendix B.




                                               4
APPENDIXES
                                                                         Page 1 of 8


   APPENDIX A: BLUE CROSS BLUE SHIELD OF TENNESSEE 

  STATEMENT OF ALLOWABLE POSTRETIREMENT BENEFIT 

   PLAN COSTS FOR FOR FISCAL YEARS 1992 THROUGH 2009


     Date                    Description              Total Company

     1992         Contributions                  1/        $3,407,849
                  Discount for Interest          2/         ($191,717)
January 1, 1992   Present Value Contributions    3/        $3,216,132
                  Prepayment Credit Applied      4/                $0
                  Present Value of Funding       5/        $3,216,132

January 1, 1992   CAS Funding Target             6/        $2,285,715
                  Percentage Funded              7/           100.00%
                  Funded PRB Cost                8/        $2,285,715
                  Allowable Interest             9/          $136,254
                  Allocable PRB Cost            10/        $2,421,969
     1992         Fiscal Year PRB Costs         11/        $1,816,477
                  Medicare LOB* Percentage      12/             3.28%

                  Allowable PRB Cost            13/          $59,580

     1993         Contributions                            $2,479,652
                  Discount for Interest                     ($117,444)
January 1, 1993   Present Value Contributions              $2,362,208
                  Prepayment Credit Applied                  $990,895
                  Present Value of Funding                 $3,353,103

January 1, 1994   CAS Funding Target                       $2,808,014
                  Percentage Funded                           100.00%
                  Funded PRB Cost                          $2,808,014
                  Allowable Interest                          $77,228
                  Allocable PRB Cost                       $2,885,242
     1993         Fiscal Year PRB Costs                    $2,769,424
                  Medicare LOB* Percentage                      3.28%

                  Allowable PRB Cost                         $90,837

     1994         Contributions                            $1,677,972
                  Discount for Interest                      ($90,800)
January 1, 1994   Present Value Contributions              $1,587,172
                  Prepayment Credit Applied                  $577,795
                  Present Value of Funding                 $2,164,967

January 1, 1994   CAS Funding Target                       $3,368,134
                  Percentage Funded                            64.28%
                  Funded PRB Cost                          $2,164,967
                  Allowable Interest                          $67,455
                  Allocable PRB Cost                       $2,232,422
     1994         Fiscal Year PRB Costs                    $2,395,627
                  Medicare LOB* Percentage                      2.75%

                  Allowable PRB Cost                         $65,880
                                                                Page 2 of 8


                                                 Total
     Date                    Description        Company

     1995         Contributions                   $1,299,651
                  Discount for Interest             ($70,328)
January 1, 1995   Present Value Contributions     $1,229,323
                  Prepayment Credit Applied               $0
                  Present Value of Funding        $1,229,323

January 1, 1995   CAS Funding Target              $3,094,257
                  Percentage Funded                   39.73%
                  Funded PRB Cost                 $1,229,323
                  Allowable Interest                 $52,246
                  Allocable PRB Cost              $1,281,569
     1995         Fiscal Year PRB Costs           $1,519,282
                  Medicare LOB* Percentage             1.17%

                  Allowable PRB Cost                $17,776

     1996         Contributions                   $1,749,027
                  Discount for Interest             ($90,104)
January 1, 1996   Present Value Contributions     $1,658,923
                  Prepayment Credit Applied               $0
                  Present Value of Funding        $1,658,923

January 1, 1996   CAS Funding Target              $3,478,250
                  Percentage Funded                   47.69%
                  Funded PRB Cost                 $1,658,923
                  Allowable Interest                 $70,504
                  Allocable PRB Cost              $1,729,427
     1996         Fiscal Year PRB Costs           $1,617,463
                  Medicare LOB* Percentage             3.75%

                  Allowable PRB Cost                $60,655

     1997         Contributions                   $1,964,869
                  Discount for Interest            ($111,219)
January 1, 1997   Present Value Contributions     $1,853,650
                  Prepayment Credit Applied               $0
                  Present Value of Funding        $1,853,650

January 1, 1997   CAS Funding Target              $3,525,733
                  Percentage Funded                   52.57%
                  Funded PRB Cost                 $1,853,650
                  Allowable Interest                 $78,780
                  Allocable PRB Cost              $1,932,430
     1997         Fiscal Year PRB Costs           $1,881,679
                  Medicare LOB* Percentage             4.07%

                  Allowable PRB Cost                $76,584
                                                                Page 3 of 8
                                                 Total
     Date                    Description        Company

     1998         Contributions                           $0
                  Discount for Interest                   $0
January 1, 1998   Present Value Contributions             $0
                  Prepayment Credit Applied               $0
                  Present Value of Funding                $0

January 1, 1998   CAS Funding Target              $3,186,384
                  Percentage Funded                    0.00%
                  Funded PRB Cost                         $0
                  Allowable Interest                      $0
                  Allocable PRB Cost                      $0
     1998         Fiscal Year PRB Costs             $483,108
                  Medicare LOB* Percentage             4.28%

                  Allowable PRB Cost                $20,677

     1999         Contributions                    $241,437
                  Discount for Interest             ($6,833)
January 1, 1999   Present Value Contributions      $234,604
                  Prepayment Credit Applied              $0
                  Present Value of Funding         $234,604

January 1, 1999   CAS Funding Target              $3,715,710
                  Percentage Funded                    6.31%
                  Funded PRB Cost                   $234,604
                  Allowable Interest                  $6,833
                  Allocable PRB Cost                $241,437
     1999         Fiscal Year PRB Costs             $181,078
                  Medicare LOB* Percentage             0.86%

                  Allowable PRB Cost                 $1,557

     2000         Contributions                   $5,114,041
                  Discount for Interest            ($283,926)
January 1, 2000   Present Value Contributions     $4,830,115
                  Prepayment Credit Applied               $0
                  Present Value of Funding        $4,830,115

January 1, 2000   CAS Funding Target              $4,756,425
                  Percentage Funded                  100.00%
                  Funded PRB Cost                 $4,756,425
                  Allowable Interest                $202,148
                  Allocable PRB Cost              $4,958,573
     2000         Fiscal Year PRB Costs           $3,779,289
                  Medicare LOB* Percentage             1.96%

                  Allowable PRB Cost                $74,074
                                                 Total          Page 4 of 8
     Date                    Description        Company

     2001         Contributions                   $9,620,364
                  Discount for Interest            ($535,227)
January 1, 2001   Present Value Contributions     $9,085,137
                  Prepayment Credit Applied          $78,111
                  Present Value of Funding        $9,163,248

January 1, 2001   CAS Funding Target              $6,271,678
                  Percentage Funded                  100.00%
                  Funded PRB Cost                 $6,271,678
                  Allowable Interest                $263,227
                  Allocable PRB Cost              $6,534,905
     2001         Fiscal Year PRB Costs           $6,140,822
                  Medicare LOB* Percentage             5.54%

                  Allowable PRB Cost               $340,202

     2002         Contributions                   $9,381,249
                  Discount for Interest            ($532,924)
January 1, 2002   Present Value Contributions     $8,848,325
                  Prepayment Credit Applied       $3,065,064
                  Present Value of Funding       $11,913,389

January 1, 2002   CAS Funding Target              $7,538,180
                  Percentage Funded                  100.00%
                  Funded PRB Cost                 $7,538,180
                  Allowable Interest                $190,107
                  Allocable PRB Cost              $7,728,287
     2002         Fiscal Year PRB Costs           $7,429,942
                  Medicare LOB* Percentage             8.67%

                  Allowable PRB Cost               $644,176

     2003         Contributions                  $10,000,003
                  Discount for Interest            ($566,038)
January 1, 2003   Present Value Contributions     $9,433,965
                  Prepayment Credit Applied       $4,637,722
                  Present Value of Funding       $14,071,687

January 1, 2003   CAS Funding Target              $8,378,700
                  Percentage Funded                  100.00%
                  Funded PRB Cost                 $8,378,700
                  Allowable Interest                $158,992
                  Allocable PRB Cost              $8,537,692
     2003         Fiscal Year PRB Costs           $8,335,341
                  Medicare LOB* Percentage             7.95%

                  Allowable PRB Cost               $662,660




                                                 Total
     Date                    Description        Company
                                                               Page 5 of 8
     2004         Contributions                 $12,300,000
                  Discount for Interest           ($578,874)
January 1, 2004   Present Value Contributions   $11,721,126
                  Prepayment Credit Applied      $6,034,566
                  Present Value of Funding      $17,755,692

January 1, 2004   CAS Funding Target            $17,435,021
                  Percentage Funded                 100.00%
                  Funded PRB Cost               $17,435,021
                  Allowable Interest               $444,143
                  Allocable PRB Cost            $17,879,164
     2004         Fiscal Year PRB Costs         $15,543,796
                  Medicare LOB* Percentage            8.53%

                  Allowable PRB Cost             $1,325,886

     2005         Contributions                 $11,457,869
                  Discount for Interest           ($567,295)
January 1, 2005   Present Value Contributions   $10,890,574
                  Prepayment Credit Applied        $338,308
                  Present Value of Funding      $11,228,882

January 1, 2005   CAS Funding Target            $10,033,943
                  Percentage Funded                 100.00%
                  Funded PRB Cost               $10,033,943
                  Allowable Interest               $377,726
                  Allocable PRB Cost            $10,411,669
     2005         Fiscal Year PRB Costs         $12,278,543
                  Medicare LOB* Percentage            6.98%

                  Allowable PRB Cost              $857,042

     2006         Contributions                 $14,278,626
                  Discount for Interest           ($494,134)
January 1, 2006   Present Value Contributions   $13,784,492
                  Prepayment Credit Applied      $1,260,661
                  Present Value of Funding      $15,045,153

January 1, 2006   CAS Funding Target            $12,530,740
                  Percentage Funded                 100.00%
                  Funded PRB Cost               $12,530,740
                  Allowable Interest               $404,000
                  Allocable PRB Cost            $12,934,740
     2006         Fiscal Year PRB Costs         $12,303,972
                  Medicare LOB* Percentage            7.05%

                  Allowable PRB Cost              $867,430
                                                                          Page 6 of 8


                                                           Total
     Date                        Description              Company

     2007             Contributions                        $11,367,565
                      Discount for Interest                  ($532,950)
January 1, 2007       Present Value Contributions          $10,834,615
                      Prepayment Credit Applied             $2,646,420
                      Present Value of Funding             $13,481,035

January 1, 2007       CAS Funding Target                   $10,033,050
                      Percentage Funded                        100.00%
                      Funded PRB Cost                      $10,033,050
                      Allowable Interest                      $261,610
                      Allocable PRB Cost                   $10,294,660
     2007             Fiscal Year PRB Costs                $10,954,680
                      Medicare LOB* Percentage                   5.48%

                      Allowable PRB Cost                     $600,316

     2008             Contributions                           $216,420
                      Discount for Interest                    ($5,152)
January 1, 2008       Present Value Contributions             $211,268
                      Prepayment Credit Applied             $1,983,492
                      Present Value of Funding              $2,194,760

January 1, 2008       CAS Funding Target                    $1,983,492
                      Percentage Funded                        100.00%
                      Funded PRB Cost                       $1,983,492
                      Allowable Interest                            $0
                      Allocable PRB Cost                    $1,983,492
     2008             Fiscal Year PRB Costs                 $4,061,284
                      Medicare LOB* Percentage                   5.33%

                      Allowable PRB Cost                     $216,466

     2009             Contributions                           $384,756
                      Discount for Interest                    ($9,161)
January 1, 2009       Present Value Contributions             $375,595
                      Prepayment Credit Applied             $1,940,568
                      Present Value of Funding              $2,316,163

January 1, 2009       CAS Funding Target                    $2,427,378
                      Percentage Funded                         95.42%
                      Funded PRB Cost                       $2,316,163
                      Allowable Interest                        $9,161
                      Allocable PRB Cost                    $2,325,324
     2009             Fiscal Year PRB Costs                 $1,852,312
                      Medicare LOB* Percentage                   1.90%

                      Allowable PRB Cost            14/       $35,194


* Line of business.
                                                                                                                     Page 7 of 8
ENDNOTES

 1/ Total company contributions were calculated by taking the contribution amounts from the postretirement benefit (PRB)
    actuarial valuation reports plus any direct benefits payments that were not reimbursed by the trust, as provided by Blue
    Cross Blue Shield of Tennessee (BCBS Tennessee). Direct benefit payments must be considered toward funding the
    PRB cost assigned to the periods before considering the amount funded by contributions to the trust fund. Such
    contributions can be used to satisfy the funding requirement of Federal Acquisition Regulation (FAR) 31.205-
    6(o)(2)(iii). The contributions included deposits made during the plan year (PY) and the discounted value of accrued
    contributions, if any, deposited after the end of the PY but within the time allowed for filing tax returns.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to
    discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the
    interest as the difference between the present value of contributions (at the valuation interest rate) and actual
    contribution amounts. Interest is determined using the expected long-term rate of return assumption as reported in the
    PRB actuarial valuation report.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first
    day of the PY.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment
    credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding
    target. A prepayment credit is carried forward, with interest, to fund future CAS PRB costs.

 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount
    of funding that is available to cover the CAS funding target measured at the first day of the PY.

 6/ The CAS funding target is based on the assignable CAS PRB costs computed during our review. The CAS funding 

    target must be funded by accumulated prepayment credits or current year contributions to satisfy the funding 

    requirement of the FAR.


 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the PY.
    Because any funding in excess of the CAS funding target is accounted for as a prepayment, the funded ratio may not
    exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS funding
    target. For purposes of illustration, the percentage of funding has been rounded to four decimal places.

 8/ We computed the funded CAS-based PRB cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS-based PRB cost, less the prepayment credit, accrues in the same
    proportion as the interest on contributions bears to the present value of contributions. However, we limited the interest
    in accordance with FAR 31.205-6(o)(4), which provides that interest costs are unallowable if caused by a delay in
    funding beyond 30 days after the end of each quarter to which they are assignable.

10/ The allocable PRB cost is the amount of PRB cost that may be allocated for contract costing purposes.

11/ We converted the allocable PRB cost to a fiscal year (FY) basis (October 1 through September 30). We calculated the
    FY PRB costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs. Audited PRB costs for FY 1992
    cover only the period from January 1, 1992, to September 30, 1992.

12/ BCBS Tennessee provided the Medicare line of business (LOB) percentages. We reviewed BCBS Tennessee’s
    Medicare LOB percentages and determined they were reasonable.
                                                                                                            Page 8 of 8



13/ We computed the allowable Medicare PRB cost as an FY PRB cost multiplied by the Medicare LOB percentage.

14/ BCBS Tennessee terminated its Medicare contract on August 1, 2009. Therefore, we computed the FY allowable PRB
    costs for the BCBS Tennessee Medicare segment for October 1, 2008, through August 1, 2009, by taking 3/12 of the
    PY 2008 allowable PRB costs plus 7/12 of the PY 2009 allowable PRB costs.
                        APPENDIX B: AUDITEE COMMENTS



  of Tennessee
  plans for better health. plans for a better    life~

  1 Cameron Hill Circle
  Chattanooga, TN 37402
  bcbst.com




January 18,2013

Patrick J. Cogley
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region VII
60 1 East 12'11 Street, Room 0429
Kansas City, MO 64016

Re: Report Number: A-07-1 2-00403

Mr. Cogley:

This letter is in response to your letter dated January 8, 2013, and the attached draft report entitled Blue
Cross Blue Shield ofTennessee Overclaimed Postretirement Benefit Costs for Fiscal Year 1992
Through 2009. As requested, following are our comments on the summary recommendation set forth in
the report including a statement of concurrence as well as a statement describing the nature of the
corrective action taken or planned.

Recommendation: Reduce PRB cost claims by $334,059

We concur with this recommendation and will work directly with CMS to resolve this issue as we no
longer have access to the CAFM system to revise FACP's.


lfyou have questions or comments regarding this response or require anything further, please contact
me by e-mail at Ralph Woodard@BCBST.com or by phone at 423-535-5192.


Sincerely,



T~~~~~ll
Vice President, Controller & Chief Accounting Officer
BlueCross BlueShield of Tennessee, Inc.




                     BlueCross BlueShield of Tennessee, Inc., an Independent Uc:ensee of the Blue( ross BlueShleld Associa tion
